No. 20-1438
SS

In the
Supreme Court of the United States
TINA CATES, PETITIONER,
Vv.

BRUCE D. STROUD BRIAN WILLIAMS, SR.; JAMES DZURENDA; ARTHUR EMLING, JR.;
Myra LAURIAN, RESPONDENT.

 

Certificate of Compliance

i

I, Christopher M. Peterson, counsel for amici curiae, hereby certify, that
according to the word-count tool in Microsoft Word, the Brief of the American Civil
Liberties Union of Nevada, National Lawyers Guild Las Vegas Chapter, Nevada
Attorneys for Criminal Justice, University of Nevada Las Vegas Policing and Protest
Clinic, Mass Liberation Nevada, and Forced Trajectory Project as Amici Curiae in
Support of Petitioner consists of 4016 words, including footnotes and excluding the
sections enumerated in Rule 33.1(d). The Brief therefore complies with Rule 33.1(g).

Lz

Christopher M. Peterson*
Senior Staff Attorney
ACLU of Nevada

601 S. Rancho Dr. #B-11
Las Vegas, NV 89106
(702) 518-4202

*Counsel of record for amici curiae
